                              ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C
                                                                              OFFICE OF
                                                                         INSPECTOR GENERAL



September 17, 2003

Memorandum

Subject:        Auditor’s Report for the South Carolina Clean Water State Revolving Fund
                Program (the Program) as of June 30, 2002
                Audit Report No. 2003-1-00139

From:           William M. Dayton
                National SRF Audit Manager

To:             Jimmy Palmer
                Regional Administrator
                EPA, Region 4
                Atlanta, GA

Attached is a copy of the subject audit we sent to the State of South Carolina. The audit contains
reports on the financial statements, internal controls, and compliance requirements applicable to
the Drinking Water State Revolving Fund (SRF) program in South Carolina for the year ended
June 30, 2002.

We issued an unqualified opinion on the financial statements and on the compliance requirements
applicable to the Clean Water SRF program. In addition, we did not note any matters involving
the internal control system and operations that we consider to be material weaknesses.

Since we did not have any compliance matters or costs questioned, and we are closing the audit
report on issuance

The OIG has no objection to the release of this report to any member of the public upon request.
The report contains no confidential business or proprietary information.

If you have any questions or concerns regarding this matter, please feel free to contact me at
(916) 498-6590.

Attachment
                              ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C
                                                                                     OFFICE OF
                                                                                INSPECTOR GENERAL




September 17, 2003

Mr. R. Lewis Shaw, Deputy Commissioner
South Carolina Department of Health and Environmental Control

Mr. Michael S. Gulledge, Director
Office of Local Government
South Carolina State Budget and Control Board

Re:     Audit Reports of the Financial Statements of the South Carolina Clean Water State Revolving
        Fund Program for the year ended June 30, 2002
        Audit Report No. 2003-1-00139

Dear Mr. Shaw and Mr. Gulledge:

Enclosed please find an electronic copy of the audited financial statements for the South Carolina Clean
Water State Revolving Fund Program for the year ended June 30, 2002. We made certain adjustments
and reclassifications, to which you have agreed, in order to have the financial statements follow EPA’s
current reporting guidelines, which are in accordance with generally accepted accounting principles

We would like to thank you and your staff for the cooperation and courtesies we received during our audit.
Please feel free to call me at (916) 498-6590 should you have any comments or questions.


Sincerely,


William M. Dayton
National SRF Audit Manager
OIG
OFFICE OF INSPECTOR GENERAL


                                   Catalyst for Improving the Environment


Audit Report

South Carolina Clean Water
State Revolving Fund


Financial Statements with
Independent Auditor’s Report, June 30, 2002


Audit Report Number 2003-1-00139

Issued September 17 , 2003
                                                  State of South Carolina
                                         Clean Water State Revolving Fund Program

                                                            Table of Contents


Independent Auditor’s Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Combining Balance Sheet . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

Combining Statement of Revenues, Expenses and Changes in Fund Balance . . . . . . . . . . . . . . . . . . . . 3

Combined Statement of Cash Flows . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Notes to the Financial Statements                 ...................................................... 5

Independent Auditor’s Report on the Internal Control Structure Based on an
       Audit of the Financial Statements Performed in Accordance with
       Government Auditing Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

Independent Auditor’s Report on Compliance with the Requirements Applicable to the Environmental
       Protection Agency’s State Revolving Fund Program in Accordance with
        Government Auditing Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C.
                                                                                                          OFFICE OF
                                                                                                     INSPECTOR GENERAL




                                         Independent Auditor’s Report
To:      Mr. R. Lewis Shaw, Deputy Commissioner
         South Carolina Department of Health and Environmental Control

         Mr. Michael S. Gulledge, Director
         Office of Local Government
         South Carolina State Budget and Control Board


We have audited the accompanying combining balance sheet of the South Carolina Clean Water State Revolving
Fund Program (the Program) as of June 30, 2002, and the related combining statement of revenues, expenses and
changes in fund balance, and combined statement of cash flows for the year then ended. These financial
statements are the responsibility of the Program=s management. Our responsibility is to express an opinion on these
financial statements based on our audit.

We conducted our audit in accordance with generally accepted auditing standards in the United States of America
and Government Auditing Standards issued by the Comptroller General of the United States of America. Those
standards require that we plan and perform the audit to obtain reasonable assurance about whether the financial
statements are free of material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the accounting principles
used and significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audit provides a reasonable basis for our opinion

The scope of our examination did not include an audit of the financial statements of the preceding year sufficient to
enable us to express, and we do not express, an opinion on the balance sheet of the Program as of June 30, 2001
or the related statements of revenue, expenses and changes in fund balance, and cash flows for the year then
ended, nor do we express an opinion on the consistency of application of accounting principles with the preceding
year.

In our opinion, the financial statements referred to in the first paragraph present fairly, in all material respects, the
financial position of the South Carolina Department of Health and Environmental Control Clean Water State
Revolving Fund Program as of June 30, 2002 and the results of its operation and its cash flows for the year then
ended in conformity with generally accepted accounting principles.

As discussed in Note 1, the financial statements referred to above are intended to present the financial position and
results of operations of the Program, a component of the general fund of the State of South Carolina. These
statements are not intended to present the financial position or results of operations for the State of South Carolina,
the South Carolina Department of Health and Environmental Control, or the South Carolina State Budget and Control
Board, of which the Program is a part. Certain supplementary information referred to as Management Discussion
and Analysis, although not a required part of the basic financial statements, has been omitted for this program-
specific financial

In accordance with Government Auditing Standards, we have also issued a report dated April 25, 2003 on our
consideration of the Program’s internal control structure and a report dated April 25, 2003 on its compliance with
laws and regulations.



Office of the Inspector General
April 25, 2003
                  South Carolina Clean Water State Revolving Fund Program
                                             Combining Balance Sheet
                                                  June 30, 2002
                                    (With comparative unaudited totals for 2001)




                                                                                          (Memorandum
                                                                                              only)
                                                                            Loan Fee          Total          (Unaudited)
            Assets                                       SRF                Account           2002               2001

Current Assets:

  Cash and cash equivalents                      $ 104,779,234         $     2,297,242      $ 107,076,476    $ 111,841,503
  Current receivables:
    Loan interest                                      1,518,102                                1,518,102       1,333,425
    Investment earnings                                1,303,105                                1,303,105       1,245,099
    Current portion of loans receivable               16,177,397                               16,177,397      10.205.046
    Total current receivables                         18,998,604                               18,998,604      12,783,570
  Total current assets                               123,777,838             2,297,242        126,075,080     124,625,073

Non-Current Assets:
  Loans receivable, net of current portion           236,304,430                              236,304,430     196,125,571
  Total non-current assets                           236,304,430                              236,304,430     196,125,571
Total assets                                         360,082,268             2,297,242        362,379,510     320,750,644

  Liabilities and Fund Equity

Current Liabilities:
 Accounts payable                                      3,017,537                                 3,017,537        455,396

Fund Equity                                          357,064,731             2,297,242        359,361,973     320,295,248

Total liabilities and fund equity                 $ 360,082,268         $    2,297,242      $ 362,379,510    $ 320,750,644




                            The accompanying notes are an integral part of these financial statements.

                                                                2
                                         South Carolina Clean Water
                                       State Revolving Fund Program
                                 Combining Statement of Revenues, Expenses
                                          and Changes in Fund Equity
                                        For the year ended June 30, 2002
                                  (With comparative unaudited totals for 2001)



                                                                                           (Memorandum
                                                                                               only)
                                                                             Loan Fee          Total           Unaudited
                                                          SRF                 Account          2002              2001
Revenues:
 Loan interest                                    $    9,142,442                             $     9,142,442    $ 8,294,872
 Investment earnings                                   5,484,867         $      93,168             5,578,035      5,999,367
 Management fees                                                               571,625               571,625        565,858
 Total revenues                                       14,677,309               664,793            15,342,102     14,860,097

Expenses:
  Administrative costs:
   Salaries and benefits                                  310,625              306,937              617,562         480,574
   Contractual services                                    45,627               22,936               68,563          63,804
   Other                                                   27,878               49,979               77,857          94,355
   Total expenses                                         384,130              379,852              793,982         638,733

  Operating income                                    14,293,179               284,941            14,578,120     14,221,364

Non-operating income:
 Federal capitalization grant                          21,537,870                                 21,537,870     25,962,367
 State matching funds                                   2,950,735                                  2,950,735      9,234,860

  Non-operating income                                 24,488,605                                 24,488,605     35,197,227

Fund equity, beginning of year                        318,282,947             2,012,301          320,295,248    270,876,657

Fund balance, end of year                        $ 357,064,731           $ 2,297,242        $ 359,361,973      $ 320,295,248




                            The accompanying notes are an integral part of these financial statements.

                                                                3
                                          South Carolina Clean Water
                                        State Revolving Fund Program
                                     Combined Statement of Cash Flows
                                       For the year ended June 30, 2002
                                 (With comparative unaudited totals for 2001)


                                                                                                             (Unaudited)
                                                                                                 2002            2001

Cash flows from operating activities:
 Cash received from customers                                                           $     12,596,927     $      9,612,590
 Investment income                                                                             5,427,889            6,119,535
 Payments to employees and suppliers                                                            (738,372)           (696,414)

Net cash provided by operating activities                                                     17,286,444           15,035,711

Cash flows from capital and related financing activities:
 Funds received from EPA                                                                      21,537,870           25,962,367
 Funds received from the State of South Carolina                                               2,950,735            9,234,860

Net cash provided by capital and related financing activities                                 24,488,605           35,197,227

Cash flows from investing activities:
 Loan disbursements                                                                           (56,745,122)        (33,019,348)
 Repayment of loans                                                                            10,205,046           8,262,465

Net cash (used in) investing activities                                                       (46,540,076)       (24,756,883)

Increase (decrease) in cash and cash equivalents                                              (4,765,027)          25,476,055

Cash and cash equivalents, beginning of year                                                 111,841,503           86,365,448

Cash and cash equivalents, end of year                                                      $ 107,076,476    $ 111,841,503


Reconciliation of operating income to cash
 provided by operating activities:

  Operating income                                                                          $ 14,578,120     $ 14,221,365
  Adjustments to reconcile operating income to net cash provided
    by operating activities:
    Depreciation                                                                                                       2,732
    (Increase) decrease in current receivables                                                  (242,683)            409,110
    Increase in current liabilities                                                            2,951,007             402,504

  Net cash provided by operating activities                                                  $ 17,286,444        $ 15,035,711




                           The accompanying notes are an integral part of these financial statements.

                                                               4
                                   South Carolina Clean Water
                                 State Revolving Fund Program
                                     Notes to Financial Statements

1.   Organization of the Fund

     The South Carolina Clean Water State Revolving Fund program was established pursuant to Title VI of the
     Federal Water Quality Act of 1987. The Act established the State Revolving Fund (SRF) program to
     replace the construction grants program. The purpose of the SRF is to provide low interest loans to local
     governments for the purpose of constructing wastewater treatment facilities, nonpoint source pollution
     control facilities, and estuary management plans. The loan repayment period ranges from 10 to 20 years,
     and all repayments, including interest and principal, must be credited to the Fund.

     The SRF Program is jointly administered by the State of South Carolina’s Department of Health and
     Environmental Control (DHEC) and the South Carolina Water Quality Revolving Fund Authority through the
     State Budget and Control Board (the Board). DHEC is responsible for administering the technical and
     program activities of the Program, and the Board is responsible for all financial and management functions.
     The Program consists of two funds: a loan fund to record loan and related activity, plus DHEC
     administrative expenses, and a loan fee fund that collects loan closing fees charged to loan recipients, and
     pays administrative expenses of the Board related to the program.

     The Program does not have any full time employees. Instead, DHEC employees charge for time spent on
     program activities and the Program reimburses DHEC for such costs. The Board employees are paid from
     loan fee revenues based on a cost allocation plan which is adjusted annually. The charges include the
     salaries and benefits of the employees, as well as indirect costs allocated to the Program. Employees are
     covered by the benefits available to State of South Carolina employees.

     The Program financial statements, footnotes, and related schedules are presented for the U.S.
     Environmental Protection Agency. The Program is included in the State of South Carolina’s general
     purpose financial statements as a special revenue Program which uses the modified accrual basis of
     accounting. Due to differences in reporting methods, there may be differences between the amounts
     reported in these financial statements and the general purpose financial statements.


2.   Summary of Significant Accounting Policies

     Basis of Accounting

     The financial statements for the Program are presented as a proprietary fund. As such, the Program is
     accounted for using the flow of economic resources measurement focus and is maintained on the accrual
     method of accounting. Under the accrual method of accounting, revenues are recognized when earned
     and expenses are recorded at the time the liabilities are incurred. All assets and liabilities associated with
     the operations of the Program are included on the balance sheet. The State has elected to follow the
     accounting pronouncements of the Governmental Accounting Standards Board (GASB), as well as
     statements issued by the Financial Accounting Standards Board on or before November 30, 1989, unless
     the pronouncements conflict with or contradict GASB pronouncements.

     Cash and Cash Equivalents

     All monies of the Program are deposited with the South Carolina State Treasurer’s Office which is
     responsible for maintaining these deposits in accordance with South Carolina State law. The Program
     considers all such deposits to be cash. Investment interest earnings on these deposits are received by the
     Program on a monthly basis. According to State law, the Treasurer is responsible for maintaining the cash
     balances and investing excess cash of the Program, as further discussed in Note 3. Consequently,
     management of the Program does not have any control over the investment of the excess cash. The
     statement of cash flows considers all funds deposited with the Treasurer to be cash or cash equivalents,
     regardless of actual maturities of the underlying investments.




                                                       5
                                   South Carolina Clean Water
                                 State Revolving Fund Program
                                     Notes to Financial Statements

2.   Summary of Significant Accounting Policies (continued)

     Loans Receivable

     Loans are funded by capitalization grants from EPA, State matching funds and fund earnings. Loan funds
     are advanced to local agencies on a cost reimbursement basis, and interest begins accruing when funds
     are disbursed. After construction is completed, the local agency can elect to add the construction period
     interest to the loan amount, or they can pay it in total at the end of the deferral period. Loans are amortized
     over periods of 10 to 20 years. Loan repayments must begin within one year of construction completion
     and are made on a quarterly basis. There is no provision for uncollectible accounts, as all repayments are
     current, and management believes all loans will be repaid according to the loan terms.

     Contributed Capital

     In accordance with generally accepted accounting principles, funds received from EPA and the State of
     South Carolina for the capitalization of the Program are recorded as non-operating income on the statement
     of revenues, expenses and changes in fund equity.

     Reclassifications

     Certain amounts in the 2001 unaudited financial statements have been reclassified to conform to the
     presentation in the 2002 financial statements.

3.   Cash and Cash Equivalents

     All cash in the Program is deposited with the State Treasurer who is responsible for maintaining and
     investing the pooled cash balances in accordance with State laws. The Treasurer is required to maintain a
     mix of investments in order to allow funds to be withdrawn at any time to meet normal operating needs. The
     Program’s share of the investment income from the local government investment pool is based on the
     average daily balance for the period and is credited to the Program monthly. Details of the investments can
     be obtained from the State Treasurer’s Office.

     All cash and investments in the local government investment pool are stated at cost, which approximates
     fair market value. Investments in local government investment pools are not categorized because they are
     not evidenced by securities that exist in physical or book entry form.


                                                                                      Market
                                                                 Cost                 Value
              Not subject to categorization:
                Local government investment pool            $ 107,076,476           $ 107,076,476


4.   Loans Receivable

     The Program has made loans to qualified local agencies at interest rates ranging from 2 percent to 4.75
     percent. Interest rates are set in the original loan agreement.




                                                       6
                                 South Carolina Clean Water
                               State Revolving Fund Program
                                   Notes to Financial Statements

4.   Loans Receivable (continued)

     Details of loans receivable as of June 30, 1999 are as follows:

                                                     Loan             Remaining               Outstanding
                                                  Authorized          Commitment                Balance
     Completed projects                         $ 181,096,220       $           0           $ 132,381,999
     Projects in progress                         167,697,370          47,597,542             120,099,828
       Totals                                   $ 348,793,590       $ 47,597,542              252,481,827
     Less amounts due within one year                                                          16,177,397
     Loans receivable, June 30, 2002                                                        $ 236,304,430

     Loans mature at various intervals through April 1, 2022. The scheduled minimum principal repayments in
     future years are as follows:

             Year ending June 30:                     Principal            Interest              Total
                      2003                        $ 16,006,831         $ 9,019,176          $ 25,026,007
                      2004                           11,424,652           8,378,902            19,803,554
                      2005                           11,888,347           7,921,916            19,810,263
                      2006                           12,371,046           7,446,382            19,817,428
                      2007                           12,873,535           6,951,541            19,825,076
                      2008-2012                      66,401,821          32,182,996            98,584,817
                      2013-2017                      60,683,923          18,902,631            79,586,554
                      2018-2022                      36,846,774           6,765,847            43,612,621
                      Total                       $ 228,496,929        $ 97,569,391         $ 326,066,320
             Projects not in repayment               23,984,898

             Loans receivable, June 30, 2002      $ 252,481,827

     Loans to Major Local Agencies:

     As of June 30, 2002, the Program had made loans to various entities that, in aggregate, exceeded
     $5,000,000. The balances of these loans represent approximately 82 percent of the total loans
     outstanding, at June 30, 2002as follows:

                                                                   Authorized              Amount
     Borrower                                                       Loans                 Outstanding

     Aiken County                                              $   6,340,757          $   5,852,528
     Beaufort-Jasper Water & Sewer                                28,445,900             17,957,908
     City of Dillon                                               12,154,933              9,333,449
     City of Florence                                             24,687,110             17,668,962
     City of Georgetown                                            9,826,771              7,439,262
     Grand Strand Water & Sewer                                   48,411,227             30,406,591
     Greenwood Metro District                                      6,143,920              5,861,021
     City of Lancaster                                             7,769,705              6,351,635
     Hilton Head PSD                                              10,194,238              9,925,439
     Town of Mount Pleasant                                       16,759,448             12,000,732
     City of Myrtle Beach                                         15,372,215             11,363,780
     Oconee County                                                 8,190,000              6,241,316
     Spartanburg Sanitary District                                12,218,707              7,642,157
     City of Sumter                                               12,447,401             10,069,390
     W. Carolina Reg. Sewer Authority                             66,596,989             46,949,605
     Subtotal of loans over $5 million                         $ 285,559,321          $ 205,063,775
     Loans under $5 million                                       63,234,269             47,418,052

             Total loans                                       $ 348,793,590          $ 252,481,827

                                                    7
                                    South Carolina Clean Water
                                  State Revolving Fund Program
                                     Notes to Financial Statements


5.   Fund Equity

     Fund equity consists of three components: capitalization grants from the EPA, state matching contributions,
     and accumulated earnings of the program.

     As of June 30, 2002, EPA has awarded capitalization grants of $230,289,884 to the State, of which
     $227,733,031 has been drawn for loans and administrative expenses. The State of South Carolina must
     also contribute an amount equal to 20 percent of the federal capitalization amount. The State has provided
     match funds of $49,513,466.

     The components of fund equity as of June 30, 2001 and 2002 are as follows:

                                                                      2002
                                                   2001              Activity            2002
     Federal capitalization grants            $ 206,195,161       $ 21,537,870      $ 227,733,031
     State matching contributions                46,562,731          2,950,735         49,513,466
     Accumulated earnings                        65,525,055         14,293,179         79,818,234

              Total fund equity              $ 318,282,947        $ 38,781,784      $ 357,064,731

     The following summarizes the capitalization grant award, amounts drawn on each grant as of the balance
     sheet date, and balances available for future loans:

                                                                                           Grant Funds
                         Grant              Draws             2002           Draws           Available
                         Amount          June 30, 2001        Draws      June 30, 2002    June 30, 2002

     1989-1998    $ 172,843,224        $ 172,843,224 $          0        $ 172,843,224    $          0
     1999             13,796,145          13,796,145                        13,796,145               0
     2000             13,778,770          13,778,770                        13,778,770               0
     2001             13,657,446           5,777,022    7,880,424           13,657,446               0
     2002             16,214,299                   0   13,657,446           13,657,446       2,556,853
     Totals        $ 230,289,884      $ 206,195,161 $ 21,537,870         $ 227,733,031     $ 2,556,853


     As of June 30, 2001 and 2002, State matching contributions were as follows:


                                                          Total Match       2002           Total Match
                                                         June 30, 2001    Contribution    June, 30 2002

     South Carolina State Matching Contribution           $ 46,562,731     $ 2,950,735    $ 49,513,466


6.   Administrative Costs and Loan Fee Revenue

     The Clean Water Act provides for states to use up to four percent of the capitalization grants toward SRF
     program administrative costs. The Program also charges local agencies a one time loan closing fee which
     has ranged from one to two percent. These fees are deposited in the loan fee fund and are to be used to
     pay for the administrative costs incurred by the Board for the clean water revolving loan program. During
     the years ended June 30, 2001 and 2002, fees of $ 565,858 and $ 571,625 were earned, respectively.




                                                     8
                                   South Carolina Clean Water
                                 State Revolving Fund Program
                                     Notes to Financial Statements


7.   Contingencies, Related Parties, and Subsequent Events

     Contingencies

     The Program is exposed to various risks of loss related to torts, thefts of assets, errors or omissions,
     injuries to state employees while performing Program business, or acts of God. The State maintains
     insurance for all risks of loss which is included in the indirect costs allocated to the Program.

     According to DHEC management and legal counsel, there are no other loss contingencies which require
     disclosure or accrual under the Statement of Financial Accounting Standards No. 5.

     Related Parties

     There are no related party transactions with or related amounts receivable from management of the
     Program.

     Subsequent Events

     On April 14, 1999, EPA awarded the fiscal year 2003 federal capitalization grant for $13,568,643. In
     addition, binding commitments were made for five local agencies totaling $25,988,732. There were no
     other subsequent events following the fiscal year-end requiring disclosure in these financial statements.




                                                       9
 Independent Auditor’s Report on the
Internal Control Structure Based on an
   Audit of the Financial Statements
     Performed in Accordance with
    Government Auditing Standards
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C.

                                                                                                   OFFICE OF
                                                                                              INSPECTOR GENERAL


TO:      Mr. R. Lewis Shaw, Deputy Commissioner
         South Carolina Department of Health and Environmental Control

         Mr. Michael S. Gulledge, Director
         Office of Local Government
         South Carolina State Budget and Control Board

We have audited the financial statements of the South Carolina Clean Water State Revolving Fund Program (the
Program) as of and for the year ended June 30, 2002, and have issued our report thereon dated April 25, 2003.

We conducted our audit in accordance with generally accepted auditing standards and Government Auditing
Standards issued by the Comptroller General of the United States. Those standards require that we plan and
perform the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement.

The management of the Program is responsible for establishing and maintaining an internal control structure. In
fulfilling this responsibility, estimates and judgments by management are required to assess the expected benefits
and related costs of internal control policies and procedures. The objectives of an internal control structure are to
provide management with reasonable, but not absolute, assurance that assets are safeguarded against loss from
unauthorized use or disposition and that transactions are executed in accordance with management’s authorization
and recorded properly to permit the preparation of financial statements in accordance with generally accepted
accounting principles. Because of inherent limitations in any internal control structure, errors or irregularities may
nevertheless occur and not be detected. Also, projection of any evaluation of the structure to future periods is
subject to the risk that procedures may become inadequate because of changes in conditions or that the
effectiveness of the design and operation of policies and procedures may deteriorate.

In planning and performing our audit of the financial statements of the Program for the year ended June 30, 2002,
we obtained an understanding of the internal control structure. With respect to the internal control structure, we
obtained an understanding of the design of relevant policies and procedures and whether they have been placed in
operation, and we assessed control risk in order to determine our auditing procedures for the purpose of expressing
our opinion on the financial statements and not to provide an opinion on the internal control structure. Accordingly,
we do not express such an opinion.

Our consideration of the internal control structure would not necessarily disclose all matters in the internal control
structure that might be material weaknesses under standards established by the American Institute of Certified
Public Accountants. A material weakness is a condition in which the design or operation of one or more of the
specific internal control elements does not reduce to a relatively low level the risk that errors and irregularities in
amounts that would be material in relation to the financial statements being audited may occur and not be detected
within a timely period by employees in the normal course of performing their assigned functions. We noted no
matters involving the internal control structure and its operations that we consider to be material weaknesses as
defined above.

This report is intended for the information of management of the Program and the U.S. Environmental Protection
Agency. However, this report is a matter of public record and distribution is not limited.



Office of Inspector General
April 25, 2003




                                                           11
          Independent Auditor’s Report
on Compliance with Requirements Applicable to the
       Environmental Protection Agency’s
         State Revolving Fund Program
               in Accordance with
         Government Auditing Standards
                           UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                         WASHINGTON, D.C.

                                                                                                 OFFICE OF
                                                                                            INSPECTOR GENERAL




TO:      Mr. R. Lewis Shaw, Deputy Commissioner
         South Carolina Department of Health and Environmental Control

         Mr. Michael S. Gulledge, Director
         Office of Local Government
         South Carolina State Budget and Control Board

We have audited the financial statements of the South Carolina Clean Water State Revolving Fund Program (the
Program) as of and for the year ended June 30, 2002, and have issued our report thereon dated April 25, 2003.

We have also audited the Program’s compliance with specific program requirements governing allowability for
specific activities, allowable types of assistance, state matching, period of availability of funds and binding
commitments, cash management, program income, and subrecipient monitoring that are applicable to the Program
for the year ended June 30, 2002. The management of the Program is responsible for the Program’s compliance
with those requirements. Our responsibility is to express an opinion on those requirements based on our audit.

We conducted our audit of compliance in accordance with generally accepted auditing standards, Government
Auditing Standards, issued by the Comptroller General of the United States. Those standards require that we plan
and perform the audit to obtain reasonable assurance about whether material noncompliance with the requirements
referred to above occurred. An audit includes examining, on a test basis, evidence about the Program’s compliance
with those requirements. We believe that our audit provides a reasonable basis for our opinion.

In our opinion, the Program complied, in all material respects, with the specific program requirements that are
applicable to the Program for the year ended June 30, 2002.

This report is intended for the information of management of the Program and the U.S. Environmental Protection
Agency. However, this report is a matter of public record and its distribution is not limited.




Office of Inspector General
April 25, 2003




                                                          13
Report Distribution

EPA, Headquarters:

Director, Grants Administration
Agency Followup Coordinator
Associate Administrator for Congressional
          and Intergovernmental Relations
Associate Administrator for Communications,
          Education and Public Affairs
Infrastructure Branch Chief
CWSRF Coordinator
CWSRF Audit Manager

EPA, Region 4:

Regional Administrator
Water Division Director
Chief, Grants and Technical Assistance
Audit Liaison
CWSRF Coordinator

State of South Carolina:

Office of Local Government
Department of Health and Environmental Control
